No.

IN THE SUPREME COURT OF THE UNITED STATES
MEGHAN KELLY, PETITIONER
Vv.
THE UNITED STATES OF AMERICA, THE PRESIDENT OF THE UNITED
STATES, PRESIDENT DONALD TRUMP, RESPONDENT
ON PETITION FOR A WRIT OF CERTIORARI TO
THE DELAWARE SUPREME COURT
WORD COUNT
I, Meghan Kelly, an unrepresented party, do declare that the number of

Words in in the Petition for a Writ of Certiorari Petition complies with the word
limitations. The number of words contained in the Petition for a Writ of Certiorari
Petition is 8,999, counted by Word, including footnotes.

I declare under penalty of perjury that the foregoing is true and correct.

hea Qh,
Meghan ae ly, =)

34012 Shawnee Drive
Dagsboro, DE 19939

Pro Se, not represented by
counsel
meghankellyesq@yahoo.com
(302) 390-8266, limited minutes

Executed on August 28, 2021
 

Ny DECLARED TO AND SUBSCRIBED before me this a4 «© day of

, 2021.
ws Pale ie ae+ oe

under 24 DQ. é dann) i e. (D241

 

 
